         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA Does Not Provide
       Oversight of Radon Testing
       Accuracy and Reliability
       Report No. 09-P-0151

       May 12, 2009
Report Contributors:                            Rick Beusse
                                                John Bishop
                                                Dan Howard
                                                Tiffine Johnson-Davis
                                                Rich Jones
                                                Bill Nelson




Abbreviations

ASTM         American Society for Testing and Materials
EPA          U.S. Environmental Protection Agency
IRAA         Indoor Radon Abatement Act
NEHA         National Environmental Health Association
NRPP         National Radon Proficiency Program
NRSB         National Radon Safety Board
OAR          Office of Air and Radiation
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
PAR          Performance and Accountability Report
pCi/L        Picocuries Per Liter (of air)
R&IE         Radon Laboratory at the Radiation and Indoor Environments National Laboratory
                        U.S. Environmental Protection Agency                                                   09-P-0151
                                                                                                             May 12, 2009
                        Office of Inspector General


                        At a Glance
                                                                               Catalyst for Improving the Environment

Why We Did This Review              EPA Does Not Provide Oversight of
The U.S. Environmental              Radon Testing Accuracy and Reliability
Protection Agency (EPA)
estimates that about 20,000          What We Found
lung cancer deaths each year        EPA does not perform oversight of radon testing device accuracy or reliability.
in the United States are related    The 1988 Indoor Radon Abatement Act required that EPA establish proficiency
to indoor exposure to radon.        programs for firms offering radon-related services, including testing and
The only way to know                mitigation. EPA established and operated proficiency programs until 1998, when
whether indoor radon levels         it disinvested in these programs. According to Agency representatives, EPA has
are elevated is to test the         neither the authority nor resources to ensure radon testing devices and testing
indoor air. The purpose of          laboratories are accurate and reliable. EPA asserts that it shares oversight
this evaluation was to              responsibility with States and industry, including the two national proficiency
determine how EPA ensures           programs operating under private auspices. However, without oversight, EPA
that radon testing devices and      cannot assure that radon testing devices provide accurate data on indoor radon
radon laboratories provide          risks or that radon testing laboratories accurately analyze and report radon results.
accurate and reliable data on
indoor radon levels.                Recent studies – while not nationwide in scope – have identified problems with
                                    the accuracy of radon testing devices. Also, a recent New England study
Background                          identified problems with the quality of laboratory analyses of radon testing.
                                    Nonetheless, a key 2009 EPA publication on the Agency’s Website continues to
Radon is a naturally occurring
                                    state that radon testing devices provide reliable measurements of indoor radon
gas that seeps out of rocks and
                                    levels. In its 2009 A Citizen's Guide to Radon: The Guide to Protecting Yourself
soil into the air in homes from
                                    and Your Family from Radon, EPA states:
the movement of gases
beneath homes. Radon builds            MYTH: Radon testing devices are not reliable and are difficult to find.
up to higher concentrations            FACT: Reliable testing devices are available from qualified radon
indoors when it is unable to           testers and companies.
disperse. Radon attaches to
                                    However, EPA does not have data within the last 10 years to support that radon
tiny dust particles in indoor air
that are easily inhaled into the    test kits or testers are reliable.
lungs and can adhere to the          What We Recommended
lining of lungs.
                                    We recommended that the Agency disclose that while radon testing is
                                    recommended, EPA cannot provide assurance that commercially available radon
For further information,            testing devices or testing laboratories are accurate and reliable. EPA generally
contact our Office of               agreed with this recommendation and stated that it will review and revise both its
Congressional, Public Affairs       Web-based and printed public materials, as appropriate. However, the Agency did
and Management at
(202) 566-2391.                     not provide information on how it intends to characterize the accuracy and
                                    reliability of radon testing in its public documents. More information is needed to
To view the full report,            assess whether EPA’s planned actions meet the intent of this recommendation.
click on the following link:        We also recommended that EPA inform Congress that the limitations of reliable
www.epa.gov/oig/reports/2009/
20090512-09-P-0151.pdf
                                    testing for radon may negatively affect achieving Indoor Radon Abatement Act
                                    goals. EPA agreed with this recommendation and plans to include this in its next
                                    Performance and Accountability Report to Congress. The Agency’s planned
                                    action meets the intent of this recommendation.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                          May 12, 2009

MEMORANDUM

SUBJECT:               EPA Does Not Provide Oversight of Radon Testing
                       Accuracy and Reliability
                       Report No. 09-P-0151


FROM:                  Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Elizabeth Craig
                       Acting Assistant Administrator for Air and Radiation


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $384,100.

Action Required

In accordance with EPA Manual 2750, EPA’s Audit Management Process, you are required to
provide a written response to this report within 90 calendar days. You should include a
corrective actions plan for agreed upon actions, including milestone dates. We have no
objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0827
or najjum.wade@epa.gov; or Rick Beusse, Director for Program Evaluation, Air and Research
Issues, at (919) 541-5747 or beusse.rick@epa.gov.
EPA Does Not Provide Oversight of                                                                                              09-P-0151
Radon Testing Accuracy and Reliability



                                      Table of Contents
   Purpose........................................................................................................................    1

   Background .................................................................................................................       1

   Scope and Methodology.............................................................................................                 2

   Results of Review .......................................................................................................          3

           Limited Authority and Resources to Assess Accuracy of
                 Radon Testing Devices ...............................................................................                3
           Concerns with Accuracy and Reliability of
               Testing Devices ...........................................................................................            4
           Recent Studies Identified Problems with Accuracy of
               Radon Testing Devices ...............................................................................                  4
           Recent Studies Identified Problems with Quality of
               Radon Laboratory Analyses ........................................................................                     6
           EPA Website Provides Assurances Related to Accuracy of
               Radon Testing Devices Without Sufficient Current Knowledge...................                                          6

   Conclusions.................................................................................................................       7

   Recommendations ......................................................................................................             8

   Agency Comments and OIG Evaluation ...................................................................                             8

   Status of Recommendations and Potential Monetary Benefits..............................                                            9



Appendices
   A Agency Response to Draft Report .......................................................................                         10

   B OIG Evaluation of Agency Response ..................................................................                            13

   C Distribution ............................................................................................................       15
                                                                                                      09-P-0151


Purpose
The purpose of this evaluation was to determine how the U.S. Environmental Protection Agency
(EPA) ensures that radon testing devices and radon laboratories provide accurate and reliable
data on indoor radon levels. Our evaluation objectives were to determine how EPA ensures that:
    •   radon testing devices provide accurate data on indoor radon risks, and
    •   radon testing laboratories accurately analyze and report indoor radon results.

Background
Radon is a naturally occurring gas that seeps out of rocks and soil into the air in homes from the
movement of gases beneath homes. Radon builds up to higher concentrations indoors when it is
unable to disperse. Radon atoms decay by emitting alpha particles. The decay product is also
radioactive and attaches to tiny dust particles in indoor air that are easily inhaled into the lungs
and can adhere to the lining of lungs. As this product decays, it emits alpha radiation, which has
the potential to damage cells in the lungs. This can disrupt the DNA of lung cells, and can lead
to lung cancer. EPA estimates that about 20,000 lung cancer deaths each year in the United
States are related to indoor exposure to radon. A 1999 report by the National Academy of
Sciences estimated about 15,000 to 22,000 Americans die every year from radon-related lung
cancer,1 or 10 to 14 percent of all persons each year who die from lung cancer in the United
States. This makes indoor radon the second leading cause of lung cancer, after cigarette
smoking.

In 2005, the U.S. Surgeon General issued a national health advisory warning the American
public about the risks of breathing indoor radon. EPA and the Surgeon General recommend
testing all homes below the third floor for radon. They also recommended taking mitigation
action in homes with radon levels at or above 4 picocuries per liter (pCi/L), EPA’s recommended
action level. According to EPA, the 4.0 pCi/L action level is not the maximum safe level for radon
in the home, since any exposure to radon poses some risk. Instead, the 4.0 pCi/L action level was a
decision based on EPA’s assessment of technology and cost. The only way to know whether
indoor radon levels are elevated is to test the indoor air.

Due to the widespread recognition of health threats from radon exposure in the 1980s and the
need for competent radon service providers, EPA established the Radon Measurement
Proficiency Program in 1986 to assist consumers in identifying organizations capable of
providing reliable radon measurement analysis services. EPA established the Radon Contractor
Proficiency Program in 1989 to evaluate the proficiency of radon mitigators in residences and
provide information to the public on proficient mitigators. In 1991, EPA expanded the
proficiency programs, adding a component to evaluate the proficiency of individuals who
provide radon measurement services in the home.

These programs were later consolidated in 1995 to form the National Radon Proficiency
Program (NRPP). The authority to establish these programs was provided to EPA through
1
 Health Effects of Exposure to Radon: Biological Effects of Ionizing Radiation VI, Committee on Health Risks of
Exposure to Radon, Board on Radiation Effects Research, Commission on Life Sciences, National Research
Council, National Academy Press, Washington, DC. 1999.


                                                        1
                                                                                       09-P-0151


Section 305 of the 1988 Indoor Radon Abatement Act (IRAA). In addition to requiring that EPA
assist States with the development of radon measurement and mitigation methods, Section 305 of
the IRAA also required EPA to establish a:
       Proficiency Rating Program - This section also establishes that $1.5 million will
       be given for EPA to establish proficiency programs for firms offering radon-
       related services, including testing and mitigation. The program would later be
       funded through a user-fee system.

EPA operated the NRPP from 1995 until 1998, when it disinvested in the program. EPA made a
one-time “acknowledgment” to both of the existing non-federal national radon proficiency
programs in March 2001. These were the National Radon Safety Board (NRSB) program and the
National Environmental Health Association’s (NEHA’s) NRPP. EPA’s official acknowledgement
of these two proficiency programs ended December 31, 2002.

Scope and Methodology
We conducted our evaluation from May 2008 to March 2009. Our evaluation focused on the
Indoor Environments Division within EPA’s Office of Air and Radiation, Office of Radiation
and Indoor Air, located in Washington, DC. We interviewed program staff and managers from
EPA’s Office of Radiation and Indoor Air, and obtained and reviewed applicable radon program
policies, procedures, and guidance. In addition, we interviewed key indoor radon stakeholders,
including representatives of the following non-governmental groups:

   •   The NEHA’s NRPP
   •   The NRSB
   •   A calibration laboratory for radon testing devices
   •   A major supplier of “do-it-yourself” test kits

We reviewed documents on the accuracy of radon testing devices and laboratories, including:

   •   A January 2008 report, Blind Testing of Commercially Available Short-Term Radon
       Detectors, by Kainan Sun, Gregory Budd, Steven McLemore, and R. William Field
   •   A February 2008 report, A Test of Radon Service Providers Available on the Internet,
       by J. Chen, R. Falcomer, L. Bergman, J. Wierdsma, and J. Ly
   •   A July 2006 report, Pilot Project for the Blind Testing of Certain Passive Radon Test
       Devices Commonly Used in the New England States, by C. Juliano and W. Bell
   •   A September 2008 Consumer Reports article, Lead and Radon Test Kits - Challenging
       Choices

We also reviewed Website information for the two proficiency programs (NEHA and NRSB).

We conducted this evaluation in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the evaluation to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our




                                                2
                                                                                          09-P-0151


evaluation objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions.

Generally accepted government auditing standards require that auditors obtain an understanding
of internal controls significant to the audit objectives and consider whether specific internal
control procedures have been properly designed and placed in operation. We performed a
limited review of management and internal controls as they related to our objectives. We
reviewed EPA guidance documents, including the NRPP Handbook dated July 1996 and the
NRPP Guidance on Quality Assurance dated October 1997. We did not perform a detailed
review of management controls, since EPA asserts that it has no oversight responsibility for the
accuracy and reliability of radon testing. We had performed a review of management controls
for the overall radon program during a recent evaluation, More Action Needed to Protect Public
from Indoor Radon Risks (Report No. 08-P-0174), dated June 3, 2008. There were no other prior
reports on which to follow up.

Results of Review
Limited Authority and Resources to Assess Accuracy of Radon Testing Devices

EPA currently exercises no oversight over radon testing devices, laboratories, or the privately
run proficiency programs. EPA decided to stop operating the NRPP in 1998 after holding public
meetings with principal radon stakeholders during a 2-year period on how to privatize the
proficiency program. EPA cited three factors that it considered when deciding to stop operating
the NRPP:

   •   Costs/budget issues
   •   The proper role of the Federal Government
   •   Maturity of the industry

EPA’s decision led to the formation of two privately run radon proficiency programs: the
NEHA-NRPP and the NRSB. Both proficiency programs were formed in 1998 and used the
same framework EPA had established for its federal NRPP program. The private proficiency
programs offer proficiency listing, accreditation, and certification in radon testing and mitigation.
Neither of the programs report to EPA nor receive EPA funding. Representatives from both
proficiency programs told us EPA provides no oversight of their programs.

EPA initially recognized the two private proficiency programs as equivalent to its previous
federal program. This official “acknowledgement” ended December 31, 2002, and has not been
renewed. EPA recognizes the two programs by referring the public to them on its public
Website. Whether operated by EPA or the privately run proficiency programs, participation by
firms offering radon-related services, including testing and mitigation, has been voluntary.

In 2006, EPA offered members of the radon stakeholder community the opportunity to
participate in a professionally-facilitated stakeholder dialogue group, a venue for communication
and problem-solving. According to EPA, this group has worked to address radon testing device
accuracy issues. These radon stakeholders – consisting of industry, State and local agencies,


                                                 3
                                                                                            09-P-0151


academia, and EPA – meet periodically to discuss the issues surrounding radon testing as well as
possible solutions to issues. There are no published reports provided to the general public from
the radon stakeholder meetings.

According to EPA Center for Radon and Air Toxics representatives, it has neither the authority
nor resources to ensure radon testing devices and testing laboratories are accurate and reliable.
EPA stopped operating the NRPP when its authorization expired and the budgetary impact was
considered.

Concerns with Accuracy and Reliability of Testing Devices
When EPA privatized the NRPP in 1998, many radon testing devices were grandfathered
(not tested by the private proficiency programs) into the current private proficiency programs.
However, according to an NRSB representative, not all of the devices were evaluated prior to
being grandfathered in. Further, there are testing devices on the market that are not listed by
either proficiency program.

NEHA-NRPP representatives informed us that during the original EPA evaluation process, if
several applications were submitted at the same time for similar radon testing devices, EPA
would only evaluate one of them but certify all of them. However, NEHA-NRPP believes these
devices may not all have had the same accuracy. NEHA-NRPP also informed us there are
companies selling devices that may have been modified significantly since they were originally
evaluated, but that the companies have never re-submitted the devices for re-evaluation.
Because of these concerns, NEHA-NRPP believes that all devices evaluated prior to 2006 should
be re-evaluated.

A representative from a calibration laboratory for radon testing devices (one of the larger private
laboratories, according to EPA) also had concerns with the accuracy of radon testing devices.
These concerns included whether all testing devices on EPA’s original approved list were ever
evaluated. The representative told us that some devices probably could not pass an evaluation,
some devices might not be accurate at high humidity, and staff at some laboratories may not be
trained in calibration. The representative also expressed concern that there was no mechanism
for re-evaluating devices that were added to the approved list of devices years ago but might not
be able to pass now, and suggested periodic re-evaluation of devices.

Both proficiency programs had concerns with consistency of State enforcement of radon testing.
While some States require that radon vendors be certified, not all States do. As a result,
enforcement options are limited. For example, if a proficiency program decided to take a radon
testing device off its list of certified devices, the vendor could still operate in States that do not
have certification requirements.

Recent Studies Identified Problems with Accuracy of Radon Testing Devices
Two recent U.S. studies that blind-tested short-term radon detectors commercially available in
the United States found significant problems in diffusion barrier charcoal canisters (with and
without liquid scintillation). A 2006 study found that devices for five of six companies failed
EPA’s 25-percent relative error accuracy guideline. A 2008 study found that radon testing


                                                  4
                                                                                                     09-P-0151


devices for three of seven companies failed the same accuracy guideline, even under ideal
conditions of constant temperature, humidity, and radon concentration [emphasis added]. The
test results suggested systematic bias for the three companies, which merited further
investigation. According to the 2008 study, prior to the recent studies, published studies
examining the accuracy and precision of commercially available short-term radon detectors were
rare. An EPA staff member participated in this study.2

Further, a September 2008 Consumer Reports article concluded that long-term devices (both
alpha track and digital readout meters) were more accurate when compared against a calibrated
standard than short-term devices (charcoal canister). Two short-term devices (charcoal canister)
of the seven tested underreported radon levels by almost 40 percent. This exceeds the 25-percent
guideline established by EPA.

A 2008 peer reviewed Canadian study of 36 short-term radon detectors available over the
Internet found some problems.3 The Radiation Protection Bureau of Health Canada tested
34 activated charcoal canisters manufactured by 10 companies. Two tests of charcoal canisters
were conducted: one with radon concentrations at or near the Canadian action level, and the
other at concentrations about twice that level. On the first test of eight companies manufacturing
charcoal canisters, three companies (four canisters total) had relative errors equal or greater than
24 percent. On the second test at the higher radon concentration, of the eight companies
manufacturing charcoal canisters, three companies (three canisters total) had relative errors equal
or greater than 24 percent. Also, in the second test, the results for four detectors (11 percent)
manufactured by two companies were declared invalid because of excessive delay in providing
test results. The study also tested two alpha track (long-term) detectors. Alpha track detectors
had relative errors of 10 and 4.5 percent. The test results showed that online radon testing
services could collectively meet Canada's performance requirement (that readings be within
+50% and -33% of reference values, 95% of the time); however, the quality of a few service
providers needed to be improved.

EPA stated that there are multiple variables that affect the accuracy and precision of radon test
results, including:

    •   The device itself
    •   The laboratory
    •   The skills and reliability of the person deploying the test
    •   The time it takes to mail the test
    •   A significant randomness factor in the ability of any device to detect radon itself

Nonetheless, the Agency has no radon testing oversight data and these are the best data available.



2
  Blind Testing of Commercially Available Short-Term Radon Detectors, by Kainan Sun, Gregory Budd (EPA,
Office of Air and Radiation, Office of Radiation and Indoor Environments, National Lab in Las Vegas, NV), Steven
McLemore, and R. William Field, June 2008, Volume 94, Number 6. Health and Physics Society.
3
  A Test of Radon Service Providers Available on the Internet, by J. Chen, R. Falcomer, L. Bergman, J. Wierdsma,
and J. Ly, accepted for publication on 25 February 2008 by Indoor Air 2008.


                                                       5
                                                                                                        09-P-0151


Recent Studies Identified Problems With Quality of Radon Laboratory Analyses

Concerned about the quality of radon measurements, the New England States’ Radon Programs
jointly undertook a double-blind study4 of radon measurement laboratories operating in their
States. In this 2006 study,5 researchers concluded that there are relatively high percentages of
laboratories performing radon analysis in the New England States that are unable to successfully
analyze proficiency samples. Laboratories analyzing radon gas in the New England States were
sent a small number of passive 48-hour test devices for the purpose of estimating analytical
precision and accuracy. The test devices were exposed to known conditions in EPA’s radon
calibration chamber in two batches. A laboratory is considered proficient in radon testing when
all of the results in a batch of performance tests are within 25 percent of the reference value.
According to this study:

    •   Six of 14 laboratories (43 percent) were not proficient in radon testing in batch 1.
    •   Four of 14 laboratories (29 percent) were not proficient in radon testing in batch 2.

The researchers concluded that to maintain an accurate and timely measure of radon testing
proficiency, a routine testing program should be established. Although EPA funded this pilot
project, the Agency did not provide additional funding for such projects after the pilot project.

EPA Website Provides Assurances Related to Accuracy of Radon Testing
Devices Without Sufficient Current Knowledge

EPA has not reviewed the two private proficiency programs since its original acknowledgement
of the two programs in 2001. EPA’s Website recommends that anyone interested in finding a
qualified radon service professional to test or mitigate their home should contact their State
radon office or one or both of the two privately-run national radon programs that offer
proficiency listing/accreditation/certification in radon testing and mitigation. Similarly, a key
2009 EPA publication on the Agency’s Website continues to state that radon testing devices
provide reliable measurements of indoor radon levels. In its 2009 radon guide, A Citizen's Guide
to Radon: The Guide to Protecting Yourself and Your Family from Radon, EPA states:

        MYTH: Radon testing devices are not reliable and are difficult to find.
        FACT: Reliable testing devices are available from qualified radon testers and
        companies. Reliable testing devices are also available by phone or mail-order,
        and can be purchased in hardware stores and other retail outlets. Call your state
        radon office for help in identifying radon testing companies.

However, EPA does not have data within the last 10 years to support that radon test kits or radon
testers are reliable. Despite the Agency’s disclaimer that it has limited involvement in the radon
proficiency programs and its reference to any specific products or services do not necessarily
imply its endorsement, EPA lacks sufficient current knowledge of the radon testing and

4
  A “double blind” study is one where both the researcher and participants are not aware of which treatment each
participant is receiving.
5
  Pilot Project for the Blind Testing of Certain Passive Radon Test Devices Commonly Used in the New England
States, by C. Juliano and W. Bell, July 2006.


                                                         6
                                                                                          09-P-0151


laboratory proficiency programs to support statements regarding radon testing device accuracy
and reliability.

The Director of EPA’s Center for Radon and Air Toxics (within the Indoor Environments
Division) said that given the fundamentally difficult task of measuring radon in homes, the
enormous population exposed, and the reality that citizens are the ones who must choose to act
independently to measure, evaluate, and reduce their risk, it is appropriate to sacrifice “some
degrees of precision” to promote ease of use, so long as the results of the system achieve
necessary risk reduction. He stated that:

       Even when there is a “false positive,” i.e., the reading is above 4.0 while the actual value
       may be somewhat below 4.0, the decision to fix the home will result in substantial risk
       reduction. This is true because our national risk estimates – over 20,000 deaths annually
       – are based on lifetime exposure at the indoor background level of 1.25 pC/L.
       Mitigations that take place at levels below 4.0 pC/L will result in risk reduction. For this
       reason EPA’s policy is to recommend fixing when the test result is between 2-4 pCi/L
       (see Citizen’s Guide). It is also true that some ‘false negative’ test results occur, leading
       the occupant to assume no action is needed when an accurate measurement would
       indicate otherwise. However, we believe the risk of such a result is acceptable as a
       matter of public policy, compared to the much greater risk associated with providing no
       easy and affordable mechanism for owners to test their homes at all.

The Agency is suggesting that devices that are easy to use, affordable, and of uncertain precision
and reliability are acceptable for measuring indoor radon risks. However, EPA does not have
recent data on the number of false positives or false negatives that occur, and was not able to
provide any studies or any other evidentiary basis within the last 10 years to support its
assumptions.

Conclusions
EPA does not have data within the last 10 years to support that radon test kits or radon testers are
reliable. EPA has not reviewed the two private proficiency programs since originally
acknowledging them in 2001. Several recent studies – while not nationwide in scope – have
identified problems with the accuracy of radon testing devices and quality of laboratory analyses.

Both EPA and the U.S. Surgeon General recommend testing homes for radon. However, EPA
cannot provide the public with reasonable assurance that radon testing devices and laboratory
proficiency programs provide accurate data on indoor radon risks. Further, EPA cannot assure
the public that radon laboratories accurately analyze and report indoor radon test results. We
believe the lack of assurance also has negative consequences for EPA’s efforts to protect the
public from indoor radon risks under the IRAA.




                                                 7
                                                                                         09-P-0151


Recommendations

We recommend that the Assistant Administrator for Air and Radiation:

   1. Disclose to the public that while radon testing is recommended by the Agency and the
      U.S. Surgeon General, EPA cannot provide assurance that commercially available radon
      testing devices or radon testing laboratories are accurate and reliable.

   2.   Inform Congress that the limitations of reliable testing for radon may negatively affect
        achieving the IRAA goals.

Agency Comments and OIG Evaluation

The Agency said it generally agreed with Recommendation 1. The Agency stated that it will
review its Web-based materials and revise them, as appropriate, within 60 days; printed
documents will take longer to revise due to printing cycles. However, the Agency did not
provide information related to what it will disclose and how it intends to characterize the
accuracy and reliability of radon testing in these documents. Additional information is needed as
to EPA’s planned revisions of public documents, such as whether they will explicitly state that
commercially available radon testing devices or radon testing laboratories may not be accurate
and reliable. We will need this information to assess whether EPA’s planned actions meet the
intent of this recommendation. The recommendation will remain open and unresolved until an
Agency corrective action plan is completed that provides details on how the Agency will
implement the recommendation.

The Agency agreed with Recommendation 2. The Office of Air and Radiation stated that it will
work with the Office of the Chief Financial Officer to initiate this update to the Agency’s next
Performance and Accountability Report to Congress within 90 days of the final OIG report. It
plans to use this report to notify Congress that the limitations of reliable testing for radon may
negatively affect achieving the IRAA goals. This response meets the intent of our
recommendation. The recommendation will remain open until the Agency provides an
acceptable action plan that includes a completion date.

The Agency’s complete written response is in Appendix A. Details on our evaluation of those
comments are in Appendix B.




                                                 8
                                                                                                                                         09-P-0151



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                               POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                             BENEFITS (in $000s)

                                                                                                                   Planned
    Rec.    Page                                                                                                  Completion   Claimed    Agreed To
    No.      No.                          Subject                        Status1         Action Official             Date      Amount      Amount

     1        8     Disclose to the public that while radon testing is      U       Assistant Administrator for
                    recommended by the Agency and the U.S.                              Air and Radiation
                    Surgeon General, EPA cannot provide assurance
                    that commercially available radon testing devices
                    or radon testing laboratories are accurate and
                    reliable.

     2        8     Inform Congress that the limitations of reliable        O       Assistant Administrator for
                    testing for radon may negatively affect achieving                   Air and Radiation
                    the IRAA goals.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                9
                                                                                         09-P-0151


                                                                                     Appendix A

                   Agency Response to Draft Report

Memorandum

SUBJECT: Comments on the Draft Evaluation Report: EPA Does Not Provide Oversight of
Radon Testing Accuracy and Reliability

FROM:          Elizabeth Craig
               Acting Assistant Administrator
               Office of Air and Radiation

TO:            Wade T. Najjum
               Assistant Inspector General for Program Evaluation
               Office of Inspector General

       The EPA Office of Air and Radiation appreciates the opportunity to comment on the
OIG’s draft report “EPA Does Not Provide Oversight of Radon Testing Accuracy and
Reliability," (Assignment No. Project No. 2008-0186, March 10). Thank you for your
observations on the important public health challenge of reducing indoor radon exposure.

       Our response to the draft findings are as follows:

Recommendation 1 - Disclose to the public that while radon testing is recommended by the
Agency and the U.S. Surgeon General, EPA cannot provide assurance that commercially
available radon testing devices or radon testing laboratories are accurate and reliable.

        OAR generally concurs with OIG’s recommendation that EPA should not assure the
public of greater accuracy than these simple devices have been demonstrated to deliver. The
report points to an instance in which we appear to have offered such an assurance. OAR will
review its public materials and revise them, as appropriate, within 60 days. Note that this applies
to our web-based information; our printed documents will take longer to revise due to printing
cycles.

 See Appendix B, Note 1, for OIG Response


        However, OAR believes the report would benefit from additional information. For
example, while OAR acknowledges OIG’s main point, that EPA does not oversee a
comprehensive national system of quality assurance for the testing and certification of radon
measurement devices and laboratories in the United States, the report is misleading without a
greater state perspective. Despite their small size, some State programs have substantial
competency in the area of radon measurement reliability, and we suggest the OIG report would
be considerably more robust if the State program perspective were to be included.


                                                10
                                                                                            09-P-0151


         Responsibility for quality control and assurance is shared among EPA, States, private
proficiency programs, device manufacturers, and laboratories. The OIG report recognizes that
limited resources are a constraint throughout the system, and that is a key insight. The US radon
protection system as a whole operates on the basis of high professional commitment and modest
resources. Although competent and dedicated, State radon programs are typically very small.
Private proficiency programs, field mitigators, device manufacturers, and test labs operate within
tight financial margins. The current economic crisis has put additional strain on a system already
under daily pressure. Device testing, quality assurance activities, and more exotic system
checks, such as blind testing, are especially costly to an industry operating in such difficult
market circumstances.

 See Appendix B, Note 2, for OIG Response


        Further, the report does not acknowledge that different levels of measurement precision
are appropriate for different applications. For residential self-testing, devices must not only
guide appropriate personal decisions about actions to reduce residential risk, but must also be
broadly available, affordable, and easy to use by the non-expert. More accurate measurement is
available for specific applications (long-term tests, active devices, etc.) when their greater cost is
justified. Cheap, simple devices that build awareness and motivate action are indispensible, even
at the price of some scientific accuracy.

 See Appendix B, Note 3, for OIG Response


        Another important consideration not adequately addressed by OIG is that EPA’s
recommended action level of 4 pC/L does not demark a bright line between “healthy” and
“unhealthy.” As EPA acknowledges in our public documents, a great deal of risk persists below
the action level. EPA’s level is based on practical considerations, such as ease of measurement
and the likelihood that standard methods of mitigation will result in substantial risk reduction if
undertaken at or above the recommended action level. Since the action level is itself imprecise,
the burden on testing to measure precisely against it is not so great as it would otherwise be. In
that respect, we note, as does OIG, that the Canadian government recently established a standard
of accuracy for measurement of radon in air (-33/+50%) that is significantly broader than the
guideline adopted by EPA for use in its former National Radon Proficiency Program (+/-25%).
The Canadian action is consistent with EPA’s view that precision in measurement is less
important than offering a test that is simple, affordable, and effective in driving individual action
to reduce high levels of indoor radon.

 See Appendix B, Note 4, for OIG Response


        Despite such constraints, EPA and the radon community have taken numerous steps to
address device accuracy, and the report would benefit from their inclusion. EPA’s Radon
Laboratory at the Radiation and Indoor Environments National Laboratory (R&IE) plays an
active role in assisting the national proficiency programs in their efforts to ensure reliability and



                                                  11
                                                                                       09-P-0151


accuracy of the radon measurement industry. For the past several years, the R&IE has provided
verification exposures of radon measurement devices for both NEHA and NRSB. The lab also
supports performance testing of commercial radon laboratories and calibration of Lucas type
cells for the measurement of radon gas. More recently the R&IE Laboratory has begun to
support university researchers and State organizations conducting blind testing of commercially
available radon measurement devices.

        In addition, the stakeholder dialogue group convened by EPA – which is actually a venue
for communication and problem-solving and not a “consensus building process” as it is
characterized in the report – has worked to address device accuracy. The group has examined
QA/QC needs for radon protection, and national consensus groups such as ASTM and the Radon
Consortium have subsequently formed committees and begun work on writing and revising
quality standards for the industry. The dialogue group continues to discuss opportunities for
greater focus and consistency in radon testing and measurement. Also, the annual National
Radon Training Conference and International Radon Symposium has scheduled numerous
technical sessions and produced several professional papers addressing device accuracy. Finally
several parties have undertaken blind testing projects, some of which OIG reviewed. The State
of Pennsylvania, for example, has conducted several blind testing studies that were not discussed
in the OIG review.

 See Appendix B, Note 5, for OIG Response


              While such undertakings do not constitute a unified national system of device
testing and measurement, they reflect the radon community’s shared concern with verifying and
improving measurement accuracy appropriate to the application. The renewed attention brought
by the OIG to this need is therefore welcome, and OAR believes it will generate even further
commitment to continued improvement in a vital area of the radon program.

Recommendation 2 - Inform Congress that the limitations of reliable testing for radon may
negatively affect achieving the IRAA goals.

         OAR concurs with this recommendation. OIG recommended in a previous evaluation
that we use the Performance and Accountability Report to inform Congress of issues raised in
that report. OAR will work with OCFO to include this recommendation in that process and will
initiate updating the PAR within 90 days of the final OIG report.


 See Appendix B, Note 6, for OIG Response


       Thank you again for the opportunity to comment on the draft evaluation report. If you
have questions, please contact Bill Long, Director for the Center of Radon and Air Toxics, at
(202) 343-9733.




                                               12
                                                                                         09-P-0151


                                                                                    Appendix B

                OIG Evaluation of Agency Response
Note 1 -   We agree with the Agency’s commitment to review its public materials and revise
           them, as appropriate. However, the Agency did not provide information related to
           what they will disclose, such as whether public materials will explicitly state that
           commercially available radon testing devices and radon testing laboratories may not
           be accurate and reliable. Additional information is needed to assess whether EPA’s
           planned actions meet the intent of this recommendation. The recommendation will
           remain open and unresolved until an Agency corrective action plan is completed that
           provides details on how the Agency will implement the recommendation.

Note 2 -   We do not believe our report is misleading. Our objectives were to determine how
           EPA ensures that radon testing devices and laboratories accurately analyze and report
           indoor radon results. We saw no systemic program or process for doing this. While
           some States may provide oversight activities, as discussed on page 4 of this report,
           there are variances in State oversight activities. For example, if a proficiency
           program decided to remove a radon testing device from its list of certified devices,
           the vendor could still operate in States that do not have certification requirements.
           Further, as we noted in our June 2008 report, More Action Needed to Protect Public
           from Indoor Radon Risks (Report No. 08-P-0174), radon codes and regulations vary
           widely between locations, even within States.

Note 3 -   The Agency states that our report does not acknowledge that different levels of
           measurement precision are appropriate for different applications. We do not agree with
           the Agency’s premise. As we noted in our June 2008 report, there is no safe level of
           exposure to radon gas, and the only way to know whether indoor radon levels are elevated is
           to test the indoor air. However, testing with inaccurate, unreliable devices may or may not
           “. . . build awareness and motivate action,” as stated in the Agency’s response. Device
           readings that overstate the true level of risk may cause homeowners to take unnecessary
           actions, and readings that understate the true level of risk may cause homeowners to
           forego taking needed actions.

Note 4 -   We clarified our description of EPA’s action level in response to the Agency’s
           concern regarding how we characterized this in the draft report.

Note 5 -   We revised the description of the stakeholder dialogue group convened by EPA to
           state that it is a venue for communication and problem-solving and, according to
           EPA, has worked to address device accuracy. Regarding the Agency’s statement that
           Pennsylvania has conducted several blind testing studies that were not included in the
           OIG review, we followed up with the Office of Air and Radiation and obtained two
           studies conducted by the Pennsylvania Department of Environmental Protection,




                                                13
                                                                                                     09-P-0151


           Bureau of Radiation Protection.6 The two studies address the blind testing of
           laboratories certified to provide radon results in Pennsylvania. These studies do not
           contradict our conclusion regarding EPA’s ability to assure the public about radon
           test results because these studies also identified instances of inaccurate test results.
           Also, neither study addresses the accuracy and reliability of radon test kits. We
           acknowledge that Pennsylvania's Department of Environmental Protection reported
           improvements in laboratory testing. However, as discussed in Note 2, there are
           variances in State codes, regulations, and oversight activities. Pennsylvania supports
           a certified radon testing program, which performs regular inspections of laboratories.
           As stated in the 2003 study:

                   The higher percentage pass rate for this study may reflect lessons
                   learned and good practices incorporated and better attention to quality
                   assurance procedures. The better attention to good QA [quality
                   assurance] procedures may be due to the fact that this state radon
                   program performs regular inspections of testers and laboratories.

           EPA acknowledges in its response that it does not oversee a comprehensive national
           system of quality assurance for the testing and certification of radon measurement
           devices and laboratories in the United States.

Note 6 -   The Agency’s response meets the intent of our recommendation. The
           recommendation will remain open until the Agency provides an acceptable action
           plan that includes a completion date.




   6
     Short-Term Electret Ion Chamber “Blind” Testing Program," Lewis, Robert K., Pennsylvania Department of
   Environmental Protection, Bureau of Radiation Protection, Radon Division, Harrisburg, Pennsylvania, included
   in the "Proceedings of the 2003 International Radon Symposium - Volume II, American Association of Radon
   Scientists and Technologists, Inc., October 5-8, 2003; and "Blind Testing of Certified Charcoal Laboratories"
   by Lewis, Robert K, Pennsylvania Department of Environmental Protection, Bureau of Radiation Protection,
   Radon Division, Harrisburg, Pennsylvania, June 2005.



                                                      14
                                                                                   09-P-0151


                                                                               Appendix C

                                    Distribution
Office of the Administrator
Acting Assistant Administrator for Air and Radiation
Deputy Assistant Administrator for Air and Radiation
Director, Office of Radiation and Indoor Air
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Acting General Counsel
Acting Associate Administrator for Congressional and Intergovernmental Relations
Acting Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Air and Radiation
Acting Inspector General




                                             15
